No. ________
IN THE
SUPREME COURT OF THE UNITED STATES
ERLIN JOSUE TORRES ZUNIGA,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
The petitioner has previously been granted leave to proceed in forma pauperis
in the following courts:
U.S. District Court for the Eastern District of Virginia, Case
No. 3:18-cr-155, by oral order entered December 21, 2018;
and
U.S. Court of Appeals for the Fourth Circuit, Case No. 194663, by written order dated September 12, 2019.
Because appellate counsel was appointed pursuant to the Criminal Justice Act
of 1964, 18 U.S.C. ยง 3006A, no affidavit or declaration of the petitioner is attached. See
S. Ct. R. 39.1.

Respectfully submitted,

~---Assistant Federal Public Defender
Counsel of Record
.
Office of the Federal Public Defender
701 East Broad Street, Suite 3600
Richmond, VA 23219
(804) 343-0800
Joseph_Camden@fd.org
October 29, 2020

-2-

